No. 19-122

In the Supreme Court of the United States
__________________
DAVID THOMPSON; AARON DOWNING;
and JIM CRAWFORD,
Petitioners,
v.
HEATHER HEBDON, in her Official Capacity
as the Executive Director of the
Alaska Public Offices Commission, et al.,
Respondents.
__________________
On Petition for Writ of Certiorari to the United
States Court of Appeals for the Ninth Circuit

__________________
Brief of the Cato Institute and the Institute for
Justice as Amici Curiae in Support of Petitioners

__________________
ILYA SHAPIRO
TREVOR BURRUS
CATO INSTITUTE
1000 Mass. Ave. NW
Washington, DC 20001
ishapiro@cato.org
tburrus@cato.org
(202) 842-0200

MICHAEL H. MCGINLEY
Counsel of Record
DECHERT LLP
1900 K Street, NW
Washington, DC 20006
Michael.McGinley@dechert.com
(202) 261-3300
Counsel for Amici Curiae

PAUL M. SHERMAN
INSTITUTE FOR JUSTICE
901 North Glebe Road, Suite 900
Arlington, VA 22203
psherman@ij.org
(703) 682-9320

*Additional Counsel
Listed on Inside Cover

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

PAUL CURRAN KINGSBERY
DECHERT LLP
1095 Avenue of the Americas
New York, NY 10036
Paul.Kingsbery@dechert.com
(212) 641-5663

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . ii
INTEREST OF AMICI CURIAE . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
I.

The Right To Participate In Politics Through
Campaign Contributions Is A Fundamental
Freedom Guaranteed By The First
Amendment . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
A. The First Amendment Guarantees the
Right to Engage in Lawful Political
Expression and Organization . . . . . . . . . . 4
B. Campaign Contribution Limits Warrant
Heightened Judicial Scrutiny . . . . . . . . . . 6

II.

This Court Should Reaffirm These Critical
Rights By Reversing The Ninth Circuit’s
Outlier Ruling Upholding Alaska’s Outlier
Contribution Limits. . . . . . . . . . . . . . . . . . . . 10

III.

This Court Should Revisit The Buckley
Framework In Order To Ensure The
Protection Of Core First Amendment
Freedoms . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

ii
TABLE OF AUTHORITIES
CASES
Arizona Free Enterprise Club’s Freedom Club PAC
v. Bennett,
564 U.S. 721 (2011). . . . . . . . . . . . . . . . . . . . . . . . 7
Buckley v. Valeo,
424 U.S. 1 (1976). . . . . . . . . . . . . . . . . . . . . passim
California Medical Ass’n v. FEC,
453 U.S. 182 (1981). . . . . . . . . . . . . . . . . . . . 11, 12
Citizens Against Rent Control/Coalition for Fair
Housing v. City of Berkeley, Cal.,
454 U.S. 290 (1981). . . . . . . . . . . . . . . . . . . . . . . . 6
Citizens United v. FEC,
558 U.S. 310 (2010). . . . . . . . . . . . . . . . . . 5, 10, 17
City of L.A. v. Alameda Books, Inc.,
535 U.S. 425 (2002). . . . . . . . . . . . . . . . . . . . . . . 14
Janus v. AFSCME,
138 S. Ct. 2448 (2018). . . . . . . . . . . . . . . . . . . . . 16
Kusper v. Pontikes,
414 U.S. 51 (1973). . . . . . . . . . . . . . . . . . . . . . . . . 5
Marbury v. Madison,
5 U.S. 137 (1803). . . . . . . . . . . . . . . . . . . . . . . . . 17
Marks v. United States,
430 U.S. 188 (1977). . . . . . . . . . . . . . . . . . . . . . . 11
McCutcheon v. FEC,
572 U.S. 185 (2014). . . . . . . . . . . . . . . . . . . passim

iii
Monitor Patriot Co. v. Roy,
401 U.S. 265 (1971). . . . . . . . . . . . . . . . . . . . . . . . 7
NAACP v. Alabama,
357 U.S. 449 (1957). . . . . . . . . . . . . . . . . . . . . . . . 4
Randall v. Sorrell,
548 U.S. 230 (2006). . . . . . . . . . . . . . . . . . . passim
Roth v. United States,
354 U.S. 476 (1957). . . . . . . . . . . . . . . . . . . . . . . . 4
Snyder v. Phelps,
562 U.S. 443 (2011). . . . . . . . . . . . . . . . . . . . . . . 14
Texas v. Johnson,
491 U.S. 397 (1989). . . . . . . . . . . . . . . . . . . . . . . 14
United States v. Alvarez,
567 U.S. 709 (2012). . . . . . . . . . . . . . . . . . . . . . . 14
United States v. Stevens,
559 U.S. 460 (2010). . . . . . . . . . . . . . . . . . . . . . . 14
Williams v. Rhodes,
393 U.S. 23 (1968). . . . . . . . . . . . . . . . . . . . . . 5, 12
Yates v. United States,
354 U.S. 298 (1957). . . . . . . . . . . . . . . . . . . . . . . 14
STATUTES
Alaska § 15.13.070(b)(1). . . . . . . . . . . . . . . . . . . . . . 10
Alaska § 15.13.070(b)(2). . . . . . . . . . . . . . . . . . . . . . 10

iv
OTHER AUTHORITIES
John J. Coleman, The Benefits of Campaign
Spending, Cato Institute Briefing Paper No. 84
(Sept. 4, 2003) . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
John J. Coleman, The Distribution of Campaign
Spending Benefits Across Groups, 63 J. Pol. 916
(2002). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Paul Freedman, Michael Franz & Kenneth
Goldstein, Campaign Advertising and
Democratic Citizenship 48 Am. J. of Pol. Science
723 (2004) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Ronald M. Levin, Fighting the Appearance
of Corruption,
6 Wash. U. J.L. & Pol’y 171 (2001) . . . . . . . . . . 15
David M. Primo & Jeffrey Milyo, Campaign Finance
Laws and Political Efficacy: Evidence from the
States, 5 Elec. L.J. 23 (2006) . . . . . . . . . . . . . . . 15
Ilya Shapiro and Caitlyn W. McCarthy, So What if
Corporations Aren’t People?, 44 J. Marshall L.
Rev. 701 (2011) . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
The Federalist No. 51 (James Madison)
(Garry Wills ed., 2003) . . . . . . . . . . . . . . . . . . . . . 5

1
INTEREST OF AMICI CURIAE1
The Cato Institute is a nonpartisan public policy
research foundation that advances individual liberty,
free markets, and limited government. Cato’s Robert
A. Levy Center for Constitutional Studies helps restore
the principles of constitutionalism that are the
foundation of liberty. Toward those ends, Cato
conducts conferences and publishes books, studies, and
the annual Cato Supreme Court Review.
The Institute for Justice (“IJ”) is a nonprofit, public
interest law firm dedicated to defending the
foundations of a free society, including the right to
speak out on elections and other matters of public
import. IJ litigates First Amendment cases that
challenge restrictions on political speech and files
amicus curiae briefs in important campaign-finance
cases. IJ has also published empirical studies about
the impact of campaign finance laws, including
disclosure requirements and contribution limitations.
This case concerns amici because it involves
overbroad and unjustified restrictions on political
speech, the protection of which is at the core of the
First Amendment. The perspective, experience, and
research of amici will provide valuable insights into the

1

Pursuant to Rule 37.6, amici curiae affirm that no counsel for a
party authored this brief in whole or in part, and no person other
than amici curiae, its members, and its counsel has made a
monetary contribution to the preparation or submission of this
brief. Counsel of record for all parties received notice at least 10
days prior to the due date of the intention of amici curiae to file
this brief. All parties consented to the filing of the brief.

2
damaging effects of limitations on the rights of
individuals to donate to political campaigns and
election-related groups.
SUMMARY OF ARGUMENT
This Court’s precedents have long held that
government may not limit campaign contributions
absent a sufficiently compelling purpose, and even then
only by means “closely drawn to avoid unnecessary
abridgment of associational freedoms.” Buckley v.
Valeo, 424 U.S. 1, 25 (1976). That standard reflects the
special protection that the First Amendment affords
core political speech because campaign contributions
and expenditures facilitate the exchange of ideas that
is vital to our democracy. In recent years, this Court
has only reinforced the strength of this heightened
form of scrutiny.
The Ninth Circuit’s outlier decision upholding
Alaska’s outlier contribution limits is flatly
inconsistent with this Court’s precedents and core First
Amendment principles.
While this Court’s
jurisprudence permits closely drawn limitations on
campaign contributions as needed to prevent
corruption or the appearance thereof, it has never
granted the federal or state governments license to
restrict valid First Amendment activity in the extreme
form embodied in Alaska’s $500 limits. Those limits
are more problematic than the limits that six justices
voted to strike down in Randall v. Sorrell, 548 U.S. 230
(2006). And the Ninth Circuit’s disregard for that
decision is even further inconsistent with the Court’s
First Amendment jurisprudence since Randall.

3
The Ninth Circuit’s flouting of this Court’s
precedents deserves a decisive rebuke. In doing so, the
Court should emphasize, once again, that core political
speech and association activities, including political
contributions, are entitled to robust protection by the
First Amendment. Indeed, in light of the Ninth
Circuit’s efforts to evade this Court’s recent precedents
regarding contribution limits, the Court may wish to
take the opportunity in this or some future case to
reconsider the validity of Buckley’s distinction between
contributions and other expenditures and apply the
same strict scrutiny to campaign contributions that it
applies to other forms of core political speech. For
these reasons and those set forth below, amici urge the
Court to grant certiorari and reverse.
ARGUMENT
I.

The Right To Participate In Politics
Through Campaign Contributions Is A
Fundamental Freedom Guaranteed By The
First Amendment.

The First Amendment freedoms of speech and of
association are defining features of the Republic. At its
core, the First Amendment (as incorporated against the
States through the Fourteenth Amendment) prevents
state and federal governments from interfering with
individuals’ lawful efforts to educate and persuade
their fellow citizens. Accordingly, this Court has long
viewed legal barriers to political expression with a
skeptical eye. In Buckley v. Valeo, this Court held that
contributions to political campaigns implicate these
core First Amendment rights and thus warrant
heightened scrutiny. 424 U.S. at 19–22. Although

4
Buckley held that some limits on campaign
contributions may be constitutionally permissible, it
held that such limits violate the First Amendment to
the extent they “prevent[ ] candidates and political
committees from amassing the resources necessary for
effective advocacy.” Id. at 21–22. And, since Buckley,
the Court has not hesitated to invalidate federal and
state statutes intended to “improve” U.S. election
processes without due regard for core First Amendment
freedoms. See McCutcheon v. FEC, 572 U.S. 185, 207
(2014). Specifically, under Buckley’s framework, laws
infringing these important rights must further a
“sufficiently important interest” and “employ means
closely drawn to avoid unnecessary abridgment of
associational freedoms.” 424 U.S. at 25. The limits
challenged here fail on both accounts.
A. The First Amendment Guarantees the
Right to Engage in Lawful Political
Expression and Organization.
The First Amendment’s guarantees of free
expression and association are essential to the proper
functioning of our democratic Republic.
Free
expression ensures the “unfettered interchange of ideas
for the bringing about of political and social changes
desired by the people,” Roth v. United States, 354 U.S.
476, 484 (1957), and free association “enhances” the
“[e]ffective advocacy of both public and private points
of view, particularly controversial ones,” NAACP v.
Alabama, 357 U.S. 449, 460 (1957). Taken together,
these guarantees are prerequisites for the
“[c]ompetition in ideas and governmental polices” that
this Court has recognized as being at the “core of our

5
electoral process.” Williams v. Rhodes, 393 U.S. 23, 32
(1968). In other words, “[i]n a republic where the
people are sovereign, the ability of the citizenry to
make informed choices among candidates for office is
essential, for the identities of those who are elected will
inevitably shape the course that we follow as a nation.”
Buckley, 424 U.S. at 15.
In addition, the freedoms of expression and
association have an undeniable social character. While
the right to hold an opinion concerning the conduct of
public affairs is necessary for free and republican
government, it is not sufficient. If elections are to serve
as “the primary control on the government,” citizens
must be permitted to engage with each other in free
and open debate and to form associations of likeminded individuals for the promotion of that debate.
The Federalist No. 51, at 316 (James Madison) (Garry
Wills ed., 2003). To interpret the First Amendment as
merely protecting “the individual on a soapbox and the
lonely pamphleteer,” would “subvert the vibrant public
discourse that is at the foundation of our democracy.”
Citizens United v. FEC, 558 U.S. 310, 373 (2010)
(Roberts, C.J., concurring). Instead, this Court has
long held that the First Amendment protects the rights
of individuals to “associate with others for the common
advancement of political beliefs and ideas,” Kusper v.
Pontikes, 414 U.S. 51, 57 (1973), and has rejected laws
that treat “corporations or other associations . . .
differently under the First Amendment simply because
such associations are not ‘natural persons.’” Citizens
United, 558 U.S. at 342. “When rights-bearing
individuals associate to better engage in a whole host
of constitutionally protected activity, their

6
constitutional rights remain fully intact.” Ilya Shapiro
and Caitlyn W. McCarthy, So What if Corporations
Aren’t People?, 44 J. Marshall L. Rev. 701, 716 (2011).
B. Campaign Contribution Limits Warrant
Heightened Judicial Scrutiny.
The First Amendment requires the federal courts to
carefully scrutinize any law restricting individuals’
expenditure of funds in furtherance of political
speech—including by donating funds to campaigns.
Indeed, in the context of contemporary electoral
politics, where “virtually every means of
communicating ideas . . . requires the expenditure of
money,” Buckley, 424 U.S. at 19, the First Amendment
guarantees the ability of “like-minded persons to pool
their resources in furtherance of common goals.” Id. at
22; see also Citizens Against Rent Control/Coalition for
Fair Housing v. City of Berkeley, Cal., 454 U.S. 290,
296 (1981) (“To place a Spartan limit—or indeed any
limit—on individuals wishing to band together to
advance their views on a ballot measure, while placing
none on individuals acting alone, is clearly a restraint
on the right of association.”).
Consistent with these constitutional principles, this
Court’s precedents place tight guardrails on any effort
to reduce political speech through contribution limits.
While Buckley upheld certain restrictions on
contributions to federal electoral campaigns, it
squarely rejected the notion that “equaliz[ing] the
relative ability of all citizens to affect the outcome of
elections” or reducing “the skyrocketing costs of
political campaigns” are legitimate justifications for
contribution limits. Buckley, 424 U.S. at 25–26.

7
Rather, the Buckley Court expressly recognized that
contribution limits can withstand First Amendment
scrutiny only upon a showing that the state has a
“sufficiently important interest” and employed “means
closely drawn to avoid unnecessary abridgment of
associational freedoms.” Id. at 25. In Buckley, the
Court held that the particular contribution limitations
at issue were “closely drawn” to prevent quid pro quo
corruption or its appearance, id. 26–27, but it did not
give governments carte blanche to impinge the
“protected associational freedom” to make campaign
contributions. Id. at 22. On the contrary, it left intact
the principle that “the constitutional guarantee has its
fullest and most urgent application precisely to the
conduct of campaigns for political office.” Monitor
Patriot Co. v. Roy, 401 U.S. 265, 272 (1971).
In the decades since Buckley, this Court has
reinforced the constitutional protection afforded to
campaign contribution limits. In particular, this
Court’s decisions in Randall v. Sorrell and McCutcheon
v. FEC have emphasized that any regulation of the
right to make campaign contributions “must . . . target
what we have called ‘quid pro quo’ corruption or its
appearance.” 572 U.S. 185, 192 (2014). By contrast,
“[c]ampaign finance restrictions that pursue other
objectives . . . impermissibly inject the Government
‘into the debate over who should govern.’” Id. (quoting
Arizona Free Enterprise Club’s Freedom Club PAC v.
Bennett, 564 U.S. 721, 750 (2011)).

8
In Randall, the Court held that Vermont’s
exceptionally low restrictions on the amounts that
individuals, organizations, and political parties may
contribute to campaigns imposed “disproportionately
severe” burdens upon First Amendment interests. 548
U.S. at 236–37. In doing so, the plurality observed that
“contribution limits that are too low can . . . harm the
electoral process by preventing challengers from
mounting effective campaigns against incumbent
officeholders, thereby reducing democratic
accountability.” Id. at 248–49. Noting that Vermont
had one of the lowest contribution limits of any state
and that the limit was not indexed to inflation, the
plurality opinion determined that Vermont’s limits
simply went far beyond what is necessary to serve any
permissible government interest. Id. at 262.
Three justices in Randall argued that the First
Amendment demands even more searching scrutiny for
campaign finance laws. Citing concerns that the
existing standard for assessing contribution limitations
is too favorable to governments and that the Court’s
jurisprudence had resulted in the impermissible
infringement of core political speech, Justice Kennedy
wrote that the standard of review had become “unduly
lenient.” Id. at 264–65 (Kennedy, J., concurring) (“On
a broader, system level political parties have been
denied basic First Amendment rights.”). Justice
Thomas, joined by Justice Scalia, similarly noted that
contribution limits unduly infringe the core freedoms
guaranteed by the First Amendment and that such
limits “disproportionately burden challengers, who
often have smaller bases of support than incumbents.”
Id. at 271 (Thomas, J., concurring). In their view, any

9
restrictions on the right to participate in electoral
politics should be subjected to strict scrutiny, and
Buckley should be overruled because it provides
inconsistent protection to the core of the First
Amendment. Id. at 267, 273 (Thomas, J., concurring).
In McCutcheon, the Court confronted the question
of whether restrictions on “how many candidates or
committees [a] donor may support” comported with the
protections of the First Amendment. 572 U.S. at 194.
While Buckley had upheld aggregate federal election
contribution limits as legitimate on the theory that it
was necessary to prevent circumvention of the base
contribution limit, in McCutcheon the Court revisited
the issue in light of intervening developments and held
that this aggregate limit was an impermissible
“prophylaxis-upon-prophylaxis approach” to the
ultimate goal of preventing campaign contributions in
excess of the base limit. Id. at 221. In doing so, the
Court emphasized that Buckley’s framework required
rigorous scrutiny of contribution limits: Given the
“substantial mismatch between” the stated objective of
the legislation and the “means selected to achieve it,”
the Court determined that the aggregate contribution
limit could not stand. Id. at 199. Justice Thomas,
concurring in the judgment, agreed that the aggregate
limits were unconstitutional, but he urged the Court to
reach that conclusion by overruling Buckley and
aligning the constitutional scrutiny applied to both
contribution limits and expenditure limits. See id. at
231–32 (Thomas, J., concurring).

10
II.

This Court Should Reaffirm These Critical
Rights By Reversing The Ninth Circuit’s
Outlier Ruling Upholding Alaska’s Outlier
Contribution Limits.

As Petitioners ably explain, the Ninth Circuit’s
decision here is flatly inconsistent with this Court’s
precedents. In addition, the Ninth Circuit’s misguided
approach highlights the need for this Court to reaffirm
that federal courts must apply heightened scrutiny to
analyze contribution limits.
Any proper application of Buckley, Randall, and
McCutcheon to the facts here compels a conclusion that
Alaska’s contribution limits cannot withstand First
Amendment scrutiny. Alaska law restrains individuals
from contributing “more than . . . $500 per year to . . .
a candidate . . . or to a group that is not a political
party.” Alaska § 15.13.070(b)(1). The statute thus
severely restricts individuals’ constitutional right to
contribute to individuals or election-related groups,
while a group that qualifies as a “political party” is
subject to a higher, $5,000 per year limit. Id.
§ 15.13.070(b)(2).
In upholding these draconian
limitations below, the Ninth Circuit made two
fundamental errors: (1) it failed to apply Randall’s
clarification of the circumstances in which any
contribution limitations exceed the permissible limits
of the First Amendment; and (2) it misconstrued
McCutcheon and Citizens United to the extent it upheld
the individual-to-group limits in particular on an “anticircumvention” theory.
On the first point, the Ninth Circuit summarily
disregarded Randall based on its view that “Randall is

11
not binding authority because no opinion commanded
a majority of the Court.” Pet. App. 16 n.5. But lower
courts may not ignore the holdings of this Court simply
because no opinion commanded a majority. As the
Court held in Marks v. United States, “[w]hen a
fragmented Court decides a case and no single
rationale explaining the result enjoys the assent of five
Justices, the holding of the Court may be viewed as
that position taken by those Members who concurred in
the judgments on the narrowest grounds.” 430 U.S.
188, 193 (1977) (quotations omitted). And there is no
legitimate debate that the views expressed by a
majority of justices in Randall (specifically, the Chief
Justice and Justices Breyer, Alito, Kennedy, Thomas,
and Scalia) compel the conclusion that the limits here,
like the limits in Randall, violate the First
Amendment.
On the second point, the Ninth Circuit flatly
contradicted this Court’s precedents by holding that
anti-circumvention, standing alone, is a sufficient
interest that justifies the extreme outlier limits at
issue here. The Ninth Circuit accepted the district
court’s conclusion that the First Amendment permits
limitations on political contributions in excess of $500
to any group that is “not a political party” merely
because there is an “apparent” risk that individuals
could form groups that would serve as “pass-through
entities” to violate the contribution limitation. The
Ninth Circuit did not even address, as Randall and
McCutcheon require, the potentially deleterious effects
on political contributions to other groups; instead, it
simply held that, “[i]f . . . the individual-to-candidate
limit is constitutional, then under California Medical

12
Ass’n[ v. FEC, 453 U.S. 182 (1981)], so too is Alaska’s
law that prevents evasion of that limit.” Pet. App. at
21. Whatever room McCutcheon left for the “anticircumvention” theory, it clearly held that measures
constituting “prophylaxis-upon-prophylaxis” require
“particularly diligent” scrutiny. 572 U.S. at 221. Here,
the Ninth Circuit conducted precisely the opposite.
The Ninth Circuit’s attempt to evade this Court’s
precedents calls out for swift rebuke. In doing so, the
Court should dispel the notion that contribution limits
can be upheld so long as a government utters the magic
word, “anti-corruption.” Instead of meaningfully
grappling with the “danger signs” articulated in the
Randall plurality opinion—including whether a
campaign contribution limitation “is well below the
lowest limit this Court has previously upheld,” and
whether it has been indexed for inflation, Randall, 548
U.S. at 251–52—the Ninth Circuit simply asserted that
Alaska’s $500 limit on campaign contributions would
not prevent a hypothetical state legislative candidate
from mounting an effective campaign. Moreover, the
decision is entirely silent on how the $500 limit might
affect the ability of other candidates—especially nonincumbents—to raise funds to mount an “effective
campaign” or why all candidates should be expected to
expend the same amounts of funds on certain
categories of campaign expenses. Under Buckley,
Randall, and McCutcheon a much more particularized
showing is required where a state government seeks to
impede robust political speech and thus diminish the
“[c]ompetition in ideas and governmental polices” at
the “core of our electoral process.” Williams, 393 U.S.
at 32.

13
III.

This Court Should Revisit The Buckley
Framework In Order To Ensure The
Protection Of Core First Amendment
Freedoms.

The Ninth Circuit’s efforts to evade this Court’s
reasoning in Randall and McCutcheon only highlight
the need for this Court to reconsider the Buckley
framework in an appropriate case. Over the years,
state legislators and lower courts have sought to exploit
the narrow distinction that Buckley drew between
contribution limits and expenditure limits to justify
increasingly more aggressive infringements on core
First Amendment freedoms. Alaska’s law and the
decision below are a case in point. And, in the years
since Buckley, the doctrinal basis for distinguishing
between contributions and expenditures has eroded
significantly. Thus, in this or another appropriate
case, the Court should reconsider whether it should
apply strict scrutiny to all laws that infringe on core
political speech and associational freedoms—whether
exercised through expenditures or contributions.
In Randall, three justices expressed this view and
articulated the doctrinal logic and liberty-enhancing
value of aligning the test for all forms of political
expression. Justice Kennedy warned in his Randall
concurrence that the Court had “upheld contribution
limits that do not come even close to passing any
serious scrutiny.” Randall, 548 U.S. at 264 (Kennedy,
J., concurring). And Justice Thomas’ concurrence,
joined by Justice Scalia, similarly explained that “the
presence of an intermediary between a contributor and
the speech eventually produced” did not justify

14
applying a lower standard to contributions than
expenditures. Id. at 266–67. Applying strict scrutiny,
by contrast, would afford “consistent protection to the
fore of the First Amendment.” Id. at 273.
Applying strict scrutiny to laws like Alaska’s would
also avoid the incongruous result that they receive a
lower level of scrutiny than restrictions on several
categories of low-value speech. Core political speech
and association rights should receive at least as much
protection as speech that advocates for the “forcible
overthrow” of the U.S. government, Yates v. United
States, 354 U.S. 298 (1957); deliberately false speech
about one’s military record, United States v. Alvarez,
567 U.S. 709 (2012); operating a sexually oriented
business in a sensitive location, City of L.A. v. Alameda
Books, Inc., 535 U.S. 425 (2002); producing “crush”
videos, United States v. Stevens, 559 U.S. 460 (2010);
protesting the funeral of U.S. servicemembers, Snyder
v. Phelps, 562 U.S. 443 (2011); or burning the American
flag, Texas v. Johnson, 491 U.S. 397 (1989). Yet, under
the Buckley standard, government has more leeway to
curtail core political speech than any of these activities.
Apart from the fact that there is no textual or
historical basis to apply a lower standard of scrutiny to
core political speech, many of the assumptions that
motivated the Buckley decision have turned out to be
critically flawed. Buckley itself recognized that “most
large contributors do not seek improper influence over
a candidate’s position or an officeholder’s action.” 424
U.S. at 29. Whatever the merits of the prophylactic
approach Buckley permitted at the time, in the years
since, neither Alaska nor any other state government

15
has established that campaign contribution limits
actually yield the benefits attributed to them in
Buckley. On the contrary, scholarship since Buckley
has shown that contribution limitations and other
restrictions on political associational activity can have
severely negative effects on the rigor of political speech.
Indeed, research shows that “exposure to campaign
advertising produces citizens who are more interested
in the election, have more to say about the candidates,
are more familiar with who is running, and ultimately,
are more likely to vote.” Paul Freedman, Michael
Franz & Kenneth Goldstein, Campaign Advertising
and Democratic Citizenship 48 Am. J. of Pol. Science
723 (2004); see also John J. Coleman, The Distribution
of Campaign Spending Benefits Across Groups, 63 J.
Pol. 916 (2002) (campaign spending improves public
trust and engagement and improves the accuracy of
perceptions about candidates, particularly among
socially disadvantaged groups); John J. Coleman, The
Benefits of Campaign Spending, Cato Institute Briefing
Paper No. 84 (Sept. 4, 2003). At the same time,
contribution restrictions have little impact on the
public confidence in government. David M. Primo &
Jeffrey Milyo, Campaign Finance Laws and Political
Efficacy: Evidence from the States, 5 Elec. L.J. 23
(2006) (“Given the importance placed on public opinion
for the development of campaign finance law, it is
remarkable that we have found so little evidence that
citizens are influenced by the campaign finance laws of
their state.”); Ronald M. Levin, Fighting the
Appearance of Corruption, 6 Wash. U. J.L. & Pol’y 171,
176–78 (2001) (“[T]he appearance [of corruption]
rationale is self-defeating, because with restrictions
will always come more occasions for accusations of

16
noncompliance. Rules will always force campaign
staffs to make judgment calls on debatable issues, and
politicians and other partisans will always have
incentives to accuse their opponents of fudging on the
rules.”).
Given these practical and doctrinal erosions in
Buckley’s rationale, there is no compelling stare decisis
rationale for continuing to apply its distinction between
limits on contributions and expenditures. In Janus v.
AFSCME, the Court articulated five principles for
when it should or should not follow stare decisis: (1) the
quality of the precedent’s reasoning; (2) the workability
of the rule; (3) its consistency with other related
decisions; (4) developments since the decision; and
(5) reliance upon the decision. 138 S. Ct. 2448, 2478–82
(2018). The Buckley framework does not survive
scrutiny under these factors.
The distinction between expenditures and
contributions is poorly reasoned and unworkable. As
stated above, it has been the target of much criticism
over the nearly half-century since it was
created—including by members of this Court. From its
inception, it has been characterized as playing “word
games,” and thus it should not continue to stand.
Buckley, 424 U.S. at 244 (Burger, C.J., concurring in
part and dissenting in part). And, in recent precedents
applying it, at least one (and often many) justices have
called for its reconsideration.
Nor has the Court applied the distinction
consistently, instead chipping away at it in subsequent
decisions. “Those who apply the rule to particular
cases, must of necessity expound and interpret that

17
rule.” Marbury v. Madison, 5 U.S. 137, 177 (1803).
Instead of applying the Buckley distinction and
expounding on it in a clear manner, the Court has
slowly inched toward what seems to be an inevitable
result: overturning Buckley. The distinction has
effectively been sentenced to death by a thousand cuts,
and the Court should put it to rest once and for all.
Nor has the contribution-expenditure distinction,
controversial and confusing in its own day, engendered
the kind of reliance interests that stare decisis
contemplates protecting. On the contrary, restrictions
on contributions have had a chilling effect on the
exercise of constitutionally protected free speech rights.
And it would be antithetical to the spirit of the Bill of
Rights to say that one group is “relying” on the First
Amendment rights of another group being
extinguished. The Court should not uphold a
distinction that allows states to prefer one type of
speaker over all others. Further, the Court must
recognize the danger of maintaining distinctions that
micromanage and silence political speech, the
cornerstone of our democracy. Indeed, “when fidelity to
any particular precedent does more to damage [the rule
of law] than to advance it, we must be more willing to
depart from that precedent.” Citizens United, 558 U.S.
at 378 (Roberts, C.J., concurring). Stare decisis does not
require preserving or extending precedents that
misstate the law, and it does not shield the distinction
created in Buckley from being reexamined and
overturned.

18
CONCLUSION
For the foregoing reasons, amici curiae urge the
Court to grant certiorari and reverse.
Respectfully submitted,
ILYA SHAPIRO
TREVOR BURRUS
CATO INSTITUTE
1000 Mass. Ave. NW
Washington, DC 20001
ishapiro@cato.org
tburrus@cato.org
(202) 842-0200
PAUL M. SHERMAN
INSTITUTE FOR
JUSTICE
901 North Glebe Road
Suite 900
Arlington, VA 22203
psherman@ij.org
(703) 682-9320

MICHAEL H. MCGINLEY
Counsel of Record
DECHERT LLP
1900 K Street, NW
Washington, DC 20006
Michael.McGinley@dechert.com
(202) 261-3300
PAUL CURRAN KINGSBERY
DECHERT LLP
1095 Avenue of the Americas
New York, NY 10036
Paul.Kingsbery@dechert.com
(212) 641-5663

Counsel for Amici Curiae
AUGUST 26, 2019

